UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
December 8, 2020
Before
DIANE P. WOOD, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
TIMOTHY W. ELKINS, JR.,
Plaintiff - Appellant
No. 20-2800

v.
TONY GUINN, et al„
Defendants - Appellees

Originating Case Information:
District Court No: 3:17-cv-03253-JBM
Central District of Illinois
District Judge Joe Billy McDade
The following is before the court: MEMORANDUM IN SUPPORT OF PLRA
MOTION TO PROCEED ON APPEAL IN FORMA PAUPERIS SUPPLEMENT,
construed as a motion to reconsider this court's order dated November 18, 2020, filed on
December 3, 2020, by the pro se appellant,
IT IS ORDERED that the motion to reconsider is DENIED. The appellant shall pay the
required docketing fee within 14 days, or this appeal will be dismissed for failure to
prosecute pursuant to Circuit Rule 3(b).

form name: c7_Order_3J(form ID: 177)

Case: 20-2800

Document: 12-1

Filed: 01/08/2021

Pages: 1

(1 of 3)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

CERTIFIED COPY
PLRA C.R. 3(b) FINAL ORDER
January 8, 2021
TIMOTHY W. ELKINS, JR.,
Plaintiff - Appellant
No. 20-2800

Cour
Seventh

v.

TONY GUINN, et al.,
Defendants - Appellees
Originating Case Information:
District Court No: 3:17-cv-03253-JBM
Central District of Illinois
District Judge Joe Billy McDade
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
appellate court on November 18, 2020 and was given fourteen (14)days to pay the $505.00
filing fee. The pro se appellant has not paid the $505.00 appellate fee. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

Filed: 01/08/2021

Document: 12-2

Case: 20-2800

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
January 8, 2021

To:

Shig Yasunaga
UNITED STATES DISTRICT COURT
Central District of Illinois
United States Courthouse & Federal Building
Springfield, IL 62701-0000

TIMOTHY W. ELKINS, JR.,
Plaintiff - Appellant
No. 20-2800

v.

TONY GUINN, et al.,
Defendants - Appellees
Originating Case Information:
District Court No: 3:17-cv-03253-JBM
Central District of Illinois
District Judge Joe Billy McDade
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
CHOOSE ONE OF THE FOLLOWING:

no record to be returned

DATE OF COURT ORDER:

11/18/2020

(2 of 3)

Case: 20-2800

Document: 12-2

Filed: 01/08/2021

Pages: 2

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

form name: c7_Mandate(form ID: 135)

Received by:

(3 of 3)

3:17-cv-03253-JBM # 49

Page 1 of 1

E-FILED
Tuesday, 07 May, 2019 03:22:39 PM
g}:V;rUiiSr9istFist^6ottgMLC D

Judgment in a Civil Case (02/11)

United States District Court
for the
Central District of Illinois
Timothy W Elkins, Jr.
Plaintiff,
vs.
Tony Guinn, M. Mayfield, Major
Traylor, Lt. Sara Johnson, Guinn,
John Doe #2, John Doe #3, John Doe #4
Defendants.

)
)
)
)
)
)
)

Case Number: 17-CV-3253

)

)
)
)

JUDGMENT IN A CIVIL CASE
DECISION BY THE COURT. This, action came before the Court, and a decision has
been rendered.
IT IS ORDERED AND ADJUDGED that the Third Amended Complaint is dismissed
with prejudice.
IT IS FURTHER ORDERED AND ADJUDGED that plaintiff recover nothing on his
claims against defendants.
Dated:

5/7/2019
s/ Shig Yasunaga______
Shig Yasunaga
Clerk, U.S. District Court
$

t

3:17-cv-03253-JBM # 48

Page 1 of 5

E-FILED

Tuesday, 07 May, 2019 11:28:04 AM
Clerk, U.S. District Court, ILCD
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
TIMOTHY W. ELKINS, JR.,

)
)
)
)
)
)
)
)

Plaintiff,
v.
TONY GUINN, et al.,
Defendants.

No.: 17-cv-3253-JBM

MERIT REVIEW -THIRD AMENDED COMPLAINT
Plaintiff, proceeding pro se, files a third amended complaint alleging various violations at
the Graham Correctional Center (“Graham”). The case is before the Court for a merit review
pursuant to 28 U.S.C. § 1915A. In reviewing the Complaint, the Court accepts the factual
allegations as true, liberally construing them in Plaintiffs favor. Turley v. Rednour, 729 F.3d
645, 649-51 (7th Cir. 2013). However, conclusory statements and labels are insufficient.
Enough facts must be provided to “state a claim for relief that is plausible on its face.”
Alexander v. United States, 721 F.3d 418, 422 (7th Cir. 2013)(citation and internal quotation
marks omitted). While the pleading standard does not require “detailed factual allegations”, it
requires “more than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Wilson v.
Ryker, 451 Fed. Appx. 588, 589 (7th Cir. 2011) quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009).
Plaintiffs three prior complaints were dismissed for his continued attempts to mis-join
unrelated claims and for failing to provide sufficient detail of claims, particularly, those
regarding his “religious rights.” Plaintiff now files his fourth iteration, which does little to cure
these defects.

1

3:17-cv-03253-JBM # 48

Page 2 of 5

Plaintiff asserts that on an unidentified date he pled guilty in Macoupin County case
number 14-CF-183, to a charge of aggravated DUI. Plaintiff was involved in a head-on collision
with another vehicle which carried Brandon Guinn, the son of Defendant Officer Guinn.
Plaintiff claims that he pled guilty to the charge because, on September 29, 2017, Defendant
Guinn entered his cell and threatened him and his family, “forcing” him to plead. Plaintiff does
not explain how it was that he was incarcerated at Graham when he had not yet pled guilty to the
DUI charge. The Court is left to conjecture that Plaintiff was imprisoned on another matter at
the time of the plea.
Plaintiff further alleges that on September 15, 2017, prior to the alleged threats by Guinn,
Defendant Mayfield placed him in handcuffs and took him to investigatory segregation. He
claims that this was done with the approval of Defendants Traylor and Johnson. Plaintiff alleges
that he was not told why he was being placed in investigatory segregation and asserts this as a
due process violation. Plaintiff pleads that from September 15, 2017 to October 4, 2017, while
in investigative segregation, Defendants Mayfield, Traylor and Johnson “denied plaintiff his
rights to practice his religion, recreation, showers, hygiene items, phone calls.. .[there was a]
roach infestation..[no] cleaning supplies..[no] access to legal supplies, [no] law library and [no]
notary causing a appeal to not get filed on time.” Plaintiff alleges that Defendants Mayfield
Traylor and Johnson subjected him to these conditions in retaliation for the accident involving
Defendant Guinn’s son.
As to the religion claim, Plaintiff does not identify his religion or plead any facts to
substantiate in what way these rights were violated. This, despite the Court’s prior orders
identifying this deficiency and providing instruction. Plaintiff also alleges he was denied

2

3:17-cv-03253-JBM # 48

Page 3 of 5

medical care without identifying a serious medical need, the care he needed and by whom it was
denied. This, too, is something which had also been previously addressed by the Court.
Plaintiff asserts a claim against Defendant Guinn for threatening him. This, however, is
barred by the application of Heck v. Humphrey, 512 U.S. 477 (1994). “The rule of Heck v.
Humphrey is intended to prevent collateral attack on a criminal conviction through the vehicle of
a civil suit. To this end, Heck bars a plaintiff from maintaining a § 1983 action in situations
where ‘a judgment in favor of the plaintiff would necessarily imply the invalidity of his
conviction or sentence...’” McCann v. Neilsen, 466 F.3d 619, 621 (7th Cir. 2006). The Heck bar
applies “until the conviction or sentence is reversed, expunged, invalidated, or impugned by the
grant of a writ of habeas corpus.” Heck, at 489. If there were a finding here that Plaintiff had
been “forced” to plead guilty, this would call into question the validity of the conviction which
flowed from the guilty plea. Plaintiffs claim that Defendant Guinn threatened him is Heckbarred and cannot proceed. If he wishes to pursue this claim, he must do so through a habeas
action.
As noted, Plaintiff alleges a due process violation as he was not told the reason he was
placed in investigative segregation. It has been determined, however, that it does not violate due
process to hold a prisoner in administrative segregation while an investigation is undertaken or a
hearing is convened. Jacobs v. Godinez, No. 95-7020, 1997 WL 45317, at *2 (N.D.I11. Jan. 30,
1997) (40 days in administrative segregation did not violate due process). This is so as “[t]he
Illinois prison regulations governing investigative segregation also do not confer a liberty interest
on prisoners to remain free of investigation segregation ” Id. See also, Walker v. Clayton, 730
Fed.Appx. 370, 373 (7th Cir. 2018). “No deprivation of liberty occurs when a restriction is
imposed for managerial, nonpunitive reasons.”

3

3:17-cv-03253-JBM # 48

Page 4 of 5

Due process may be implicated, however, if the conditions in administrative segregation
represent an “atypical and significant hardship.” Lieberman v. Budz, No. 03-2009, 2009 WL
1437609, at *10 (N.D. Ill. May 20, 2009) (internal citations omitted). See also, Dixon v.
Godinez, 114 F.3d 640, 644 (7th Cir. 1997) (court to examine not just the severity, but the
duration of the complained-of conditions). Here, the Court considers Plaintiffs claim that he
was held three weeks without recreation, showers, hygiene items or phone calls, in a cell infested
with roaches. The Court does not consider Plaintiffs religion claims or denied access to the
courts due to his failure, yet again, to provide sufficient information as to these claims.
Plaintiff gives not detail as to the roach infestation. He does not indicate the prevalence
or approximate number of roaches or any physical injury it caused. See Harris v. Fleming, 839
F.2d 1232, 1235 (7th Cir. 1988)(ten days in a segregation unit without toilet paper, toothbrush or
toothpaste in a “filthy, roach-infested cell” did not constitute cruel and unusual punishment);
Caudle-El v. Peters, 727 F.Supp. 1175, 1181 (N.D.I11. Oct. 15, 1989) (six days without hygiene
items not actionable where plaintiff did not suffer physical harm). Here, three weeks without
recreation, showers, hygiene items or phone calls, along with an unknown number of roaches.
fails to state a colorable conditions of confinement claim and is DISMISSED.
Plaintiffs retaliation claim against Defendants Mayfield, Traylor and Johnson also fails
as Plaintiff fails to plead that he suffered retaliation for exercising a constitutionally protected
right. Pearson v. Welborn, 471 F.3d 732, 738 (7th Cir. 2006) (internal citation omitted). Here,
Plaintiff alleges that he was retaliated against for having struck one of Defendants’ children in an
automobile accident. Plaintiffs head-on collision with Brandon Guinn was not constitutionally
protected activity subject to First Amendment protection and is DISMISSED.

4

3:17-cv-03253-JBM # 48

Page 5 of 5

IT IS THEREFORE ORDERED:
1)

Plaintiffs Third Amended Complaint is dismissed for failure to state a claim

pursuant to Fed. R. Civ. P. 12(b)(6) and 28 U.S.C. § 1915A, for the reasons indicated herein.
Plaintiff has been given sufficient opportunity and, despite this and the instruction of the Court,
has failed to plead a cognizable claim. The complaint is DISMISSED with prejudice and this
case is closed. The clerk is directed to enter a judgment pursuant to Fed. R. Civ. P. 58.
2)

This dismissal shall count as one of Plaintiffs three allotted "strikes" pursuant to

28 U.S.C. Section 1915(g). The Clerk of the Court is directed to record Plaintiffs strike in the
three-strike log.
3)

Plaintiff must still pay the lull docketing fee of $350 even though his case has

been dismissed. The agency having custody of Plaintiff shall continue to make monthly
payments to the Clerk of Court, as directed in the Court's prior order.
4)

If Plaintiff wishes to appeal this dismissal, he must file a notice of appeal with this

Court within 30 days of the entry of judgment. Fed. R. App. P. 4(a). A motion for leave to
appeal in forma pauperis should set forth the issues Plaintiff plans to present on appeal. See Fed.
R. App. P. 24(a)(1)(C). If Plaintiff does choose to appeal, he will be liable for the $505 appellate
filing fee irrespective of the outcome of the appeal.

5/7/2019
ENTERED

s/ Joe Billy McDade
JOE BILLY McDADE
UNITED STATES DISTRICT JUDGE

5

IN THE CIRCUIT COURT FOR THE SEVENTH JUDICIAL CIRCUIT
MACOUPIN COUNTY, ILLINOIS
TIMOTHY W. ELKINS, JR.,
Plaintiff,
vs.
TONY GUINN, SARA JOHNSON,
and DANTEL TRAYLOR,
Defendants.

)
)
)
)
)
)
)
)
)
)

No. 2018-L-32

DEFENDANTS’ REPLY IN SUPPORT OF THEIR MOTION TO DISMISS
PLAINTIFF’S SECOND AMENDED COMPLAINT
The Defendants, TONY GUINN, SARA JOHNSON, and DANIEL TRAYLOR, by and
through their attorney, Kwame Raoul, Attorney General for the State of Illinois, provide the
following reply in support of their motion to dismiss Plaintiffs second amended complaint, filed
pursuant to section 2-619(a)(4) of the Code of Civil Procedure:
1.

On November 30, 2020, Plaintiff filed his response to Defendants’ motion seeking
w

.

*

•

•*

4

- ri

•

■-

dismissal of his second amended complaint.
2.

In his response, Plaintiff cites to no case law and fails to address the elements of

res judicata. Instead, Plaintiff attempts to distinguish this present action from the federal action
that was dismissed and serves as the basis for Defendants’ argument. He argues that the cases are
distinct because he proceeded on different claims in the federal action.
3.

Plaintiffs attempts to distinguish the claims are not entirely accurate. Plaintiff

contends that the federal action against Defendant Guinn was for claims of threats and retaliation,
whereas the cause of action in this matter is excessive force and the denial of medical treatment.
(PI Resp., TJ4). Plaintiff also claims that the federal case against Johnson and Traylor was for
retaliation but the claim in this case is for indifference to medical needs. (PI Resp., |7). But, these
Case No. 18-L-32

Page 1 of 4

claims by Plaintiff are contradicted by the third amended complaint that he filed in the federal
matter, which Defendants attached to the memorandum of law in support of their motion to dismiss
as Exhibit 2. The similarities between this case and the federal action are also highlighted in the
dismissal order entered by Judge McDade, which sets forth the allegations as observed by the
Court in that suit. (Defs’ MOL, Exhibit 3). Plaintiffs claims brought in the federal action were not
as discrete as he contends in opposition to Defendants’ motion to dismiss.
4.

Regardless, it is clear from the case law that labelling claims differently in separate

actions does not negate the res judicata bar. River Park, Inc. v. City of Highland Park, 184 I11.2d
290,311 (1998) (“Accordingly, we hold that the same evidence test is not determinative of identity
of cause of action. Instead, pursuant to the transactional analysis, separate claims will be
considered the same cause of action for purposes of res judicata if they arise Rom a single group
of operative facts, regardless of whether they assert different theories of relief.”); see also Cooney
v. Rossiter, 2012 IL 113227, ^23 (2012) (finding identity of cause of action between state and
federal claims because “both suits arose from the same set of operative facts.”).
5.

In a supplemental filing by Plaintiff, also filed on November 30, 2020, Plaintiff

argues that Defendants had “easy access to the information used to file their motion”; however,
this is not true. The Defendants were not served in the federal action and, although defense counsel
was aware of federal actions filed by Plaintiff in the Southern District of Illinois, defense counsel
did not know about the case cited to in their motion until after March 2020.

Case No. 18-L-32

Page 2 of 4

WHEREFORE, for these reasons, Defendants request that this Court grant their motion to
dismiss Plaintiffs second amended complaint, and that it dismiss the Plaintiffs complaint with.
prejudice.
Respectfully submitted,
TONY GUINN, SARA JOHNSON, and DANIEL
TRAYLOR,
Defendants,

'
Lisa Cook, #6298233
Assistant Attorney General
500 South Second Street
Springfield, Illinois 62701
. (217)557-0261 Phone
(217) 782-8767 Fax
E-mail: lcook@atg.state.il.us

Case No. 18-L-32

KWAME RAOUL, Attorney General,
State of Illinois,
Attorney for Defendants,

By: s/Lisa Cook
Lisa Cook
Assistant Attorney General

Page 3 of 4

Timothy W. Elkins. Jr. #Y-4242 v. Tony Guinn:
Macoupin Countv Case No. 2018-L-32
CERTIFICATE OF SERVICE
Lisa Cook, under penalties as provided by law pursuant to §1-109 of the Code of Civil
Procedure (735 ILCS 5/1-109), certifies that the statements set forth in this certificate of service
are true and correct, except as to matters therein stated to be on information and belief and as to
such matters the undersigned certifies as aforesaid that she verily believes the same to be true and
that she has served a copy of the foregoing, Defendants ’ Reply In Support of Their Motion to
Dismiss Plaintiff’s Amended Complaint, via U.S. Mail, proper postage affixed, mailed at
Springfield, Illinois on December 21, 2020, to the following:
Timothy Elkins, Jr., #Y24242
Dixon Correctional Center
2600 N. Brin ton Avenue
Dixon, IL 61021
A copy of the above described document was e-filed this date with the Circuit Clerk’s Office of
Macoupin County.

s/Lisa Cook
Lisa Cook
Assistant Attorney General

Case No. 18-L-32

Page 4 of 4

